No. ______

In the Supreme Court of the United States
________
DAMANTAE GRAHAM,
Petitioner,
v.
STATE OF OHIO
Respondent.

PETITION FOR WRIT OF CERTIORARI
TO THE OHIO SUPREME COURT
APPLICATION FOR LEAVE TO PROCEED IN FORMA PUAPERIS
Petitioner Damantae Graham respectfully requests leave to file the attached
petition for writ of certiorari without payment of costs and to proceed in forma
pauperis.
Graham is indigent, and he has been found indigent and permitted to file in
forma pauperis in the Ohio Supreme Court and the Ohio Court of Appeals in all of
his previous filed cases. See Appointment Order, attached hereto as Attachment A.
Every court since Graham was indicted in 2016 has permitted him to proceed in
forma pauperis.
Petitioner Damantae Graham respectfully requests leave to file the attached
petition for writ of certiorari without payment of costs and to proceed in forma
pauperis.

Respectfully submitted,
Office of the Ohio Public Defender
/s/ Michelle Umaña
Michelle Umaña [0093518]
Assistant State Public Defender
Counsel of Record
/s/ Randall Porter
Randall Porter [0005835]
Assistant State Public Defender
250 East Broad Street, Suite 1400
Columbus, Ohio 43215
Ph: (614) 466-5394
Fax: (614) 644-0708
Michelle.Umana@opd.ohio.gov
Randall.Porter@opd.ohio.gov
Counsel for Damantae Graham

2

State of Ohio

Case No. 2016-1882

V.

ENTRY

Damantae D. Graham

This cause came on for further consideration upon the ﬁling of appellant’s motion for
appointment of Michelle Umaﬁa and Randal Porter as counsel. It is ordered by the court
that the motion is granted and Michelle Umaﬁa and Randal Porter are appointed to
represent appellant for the purposes of ﬁling an application for reopening.
(Portage County Court of Common Pleas; No. 2016

CR

107 E)

Maureen O’Co1mor
Chief Justice

The

Official

Case Announcement can be found at http://www.supremecourt.ohio.gov/ROD/docs/

ATTACHMENT A

